Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

Dave Jackson, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18
years of age.
That on 6/3/2021 deponent caused to be served 1 copy(s) of the within
Reply to Opposition
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

AUSA Alicia Washington
United States Attorney's Office
Eastern District of New York
271 Cadman Plaza East
Brooklyn NY 11201
(718) 254-7000

Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001
(202) 514-2203

Sworn to me this

Case Name: USA v. Bernard Thomas (3)

Thursday, June 3, 2021
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

Docket/Case No: 20-7189
Index: 19-2410-cr

